COMPILATION OF THE FY 1996ARMY FINANCIAL STATEMENTS
   AT THE DEFENSE FINANCE AND ACCOUNTING SERVICE
                INDIANAPOLIS CENTER



Report Number 98-120                           April 23 1998




             Office of the Inspector General
                 Department of Defense
 Additional Information and Copies

 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
 General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

 Suggestions   for   Audits

 To suggest ideas for or to request future audits, contact the Planning and Coordination
 Branch of the Analysis, Planning, and Technical Support Directorate at
 (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
 can also be mailed to:

                      OAIG-AUD (ATI’N: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 4249098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
 by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms

CFO                    Chief Financial Officers
DBOF                   Defense Business Operations Fund
DFAS                   Defense Finance and Accounting Service
GLAC                   General Ledger Account
SGL                    Standard General Ledger
USD(C)                 Under Secretary of Defense (Comptroller)
AAA                    Army Audit Agency
                                 INSPECTOR     GENERAL
                                 DEPARTMENT   OF DEFENSE
                                   400 ARMY NAVY DRIVE
                                 ARLINGTON. VIRGINIA 22202




                                                                            April 23, 1998

MEMORANDUM         FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
                       DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                          SERVICE
                       AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT:    Audit Report on the Compilation of the FY 1996 Army Financial Statements
            at the Defense Finance and Accounting Service Indianapolis Center (Report
            No. 9% 120)


        We are providing this report for review and comment. This audit was performed
in response to the Chief Financial Officers Act of 1990, as amended by the Federal
Financial Management Act of 1994.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
The Under Secretary of Defense (Comptroller), and the Director, Defense Finance and
Accounting Service Indianapolis Center, did not comment on a draft of this report.
Accordingly, we request that the Under Secretary of Defense (Comptroller), and the
Director, Defense Finance and Accounting Service Indianapolis Center, provide comments
on the final report by June 22, 1998.

        We appreciate the courtesies extended to the audit staff. Questions on the
audit should be directed to Mr. Richard B. Bird, Audit Program Director, at
(703) 604-9175 (DSN 664-9175) or e-mail RBird@DODIG.OSD.MIL,               or Mr. John J.
Vietor, Audit Project Manager, at (3 17) 5 1O-3855 (DSN 699-3 855) or e-mail
JVietor@DODIG.OSD.MIL.          See Appendix D for the report distribution. The audit team
members are listed on the inside back cover.




                                          David K. Steensma
                                   Deputy Assistant Inspector General
                                              for Auditing
                       Offke of the Inspector General, DOD

Report No. 98-120                                                        April 23, 1998
   (Project No. 6FI-2023)

      Compilation of the FY 1996Army Financial Statements at the
       Defense Finance and Accounting Service Indianapolis Center


                                Executive Summary

Introduction. The Defense Finance and Accounting Service (DFAS) Indianapolis
Center maintains the Army departmental accounting records and compiles the Army
General Fund financial statements.

This audit was performed in response to the Chief Financial Officers Act of 1990, as
amended by the Federal Financial Management Act of 1994. The Chief Financial
Officers Act requires the Inspector General, DOD, to audit the financial statements of
DOD organizations in accordance with applicable generally accepted Government
auditing standards but allows the delegation of the audit work. The Inspector General,
DOD, delegated the audit of the FY 1996 Army General Fund financial statements to
the Army Audit Agency and assisted by performing the required audit work at the
DFAS Indianapolis Center. The Army Audit Agency disclaimed an opinion on the
FY 1996 Army General Fund financial statements, and we concurred with the
disclaimer.

The Army FY 1996 General Fund financial statements included the Statement of
Financial Position and the Statement of Operations and Changes in Net Position, along
with the supporting footnotes, supplementary schedules, and a management overview.
The FY 1996 Statement of Financial Position reported total assets of $201 billion and
total liabilities of $25.3 billion as of September 30, 1996. The Statement of Operations
and Changes in Net Position reported total revenues of $62.3 billion and total expenses
of $64.7 billion for the fiscal year ended September 30, 1996.

Audit Objectives. Our audit objective was to determine whether the DFAS
Indianapolis Center consistently and accurately compiled financial information from
field activities and other sources into the FY 1996 Consolidated Financial Statements of
the Army General Fund. We evaluated the processes, including internal controls and
methods that the DFAS Indianapolis Center used to compile the Army FY 1996
General Fund financial statements. In addition, we reviewed the adequacy of the
internal control program as it applied to our objectives.

Audit Results. The DFAS Indianapolis Center compiled financial data from field
entities and other sources into the FY 1996 Army General Fund financial statements in
a manner generally consistent with applicable laws and regulations. However, the
financial statements were inaccurate in several material respects, and the procedures
and internal controls used to compile the financial statements needed improvement.
See Appendix A for details on the internal control program.

       o The DFAS Indianapolis Center needed to improve its process for compiling
the Army General Fund financial statements. The process that was used to prepare 265
adjustments to the departmental general ledger data for about $298.9 billion could have
been more efficient or better controlled. Departmental general ledger adjustments were
made for many reasons, including changing General Ledger Accounts (GLACs) to
match certified status data, recording auditors’ adjustments, recording information on
ammunition assets received from external sources, or correcting errors made by field
accounting entities. Also, at the end of FY 1996, the DFAS Indianapolis Center was
required to make 17,312 correcting adjustments to data on the status of appropriations
for about $1.5 billion that would not have been necessary if existing policies had been
enforced. The DFAS Indianapolis Center completed research and documentation
supporting 43 Treasury reconciliation adjustments for about $122.4 million; however,
the DFAS Indianapolis Center did not complete the research and documentation to
support an additional 5 Treasury reconciliation adjustments for about $7 million. In
addition, the DFAS Indianapolis Center could not determine the correct balance for
Non-Entity Assets Fund Balance With Treasury, Army Suspense Account
(Appropriation 21-X-6875). As a result, the compilation of the financial statements
was prone to error, and the statements were subject to material misstatement. The
Statement of Operations and Changes in Net Position (FYs 1996 and 1995 balances)
and the Statement of Financial Position (FY 1995 balances) were misstated by at least
$15.2 billion because of an error in posting a single general ledger adjustment. Also,
the negative $133 million reported as Non-Entity Assets Fund Balance With Treasury
for FY 1996 was both abnormal and inaccurate (Finding A).

         o Army general ledger accounts did not accurately reflect the value of assets
transferred to or from the Army. As a result, the balances recorded for assets
transferred to or from the Army were not supportable, and the Army will not be able to
meet the expanded financial reporting requirements effective for FY 1998 yearend
reporting (Finding B).

Part I of this report provides the details of our audit.

Summary of Recommendations. We recommend that the Director, DFAS
Indianapolis Center, improve the efficiency of and control over the process that the
DFAS Indianapolis Center uses to adjust departmental general ledger data, enforce the
existing
                        the actual FY 1996 yearend balance of the Army Suspense
Account (Appropriation 21-X-6875), and report the correct FY 1996 Non-Entity Fund
Balance With Treasury as a prior-period correction on the FY 1997 Army General
Fund financial statements.

We also recommend that the Under Secretary of Defense (Comptroller) revise the DOD
Standard General Ledger Chart of Accounts to permit Army general ledger accounts to
accurately reflect the value of assets transferred to or from the Army, and that the
Director, DFAS Indianapolis Center, determine the correct balances to be recorded for
transferred assets.

Management Comments. The Under Secretary of Defense (Comptroller) and the
Director, DFAS Indianapolis Center, did not respond to a draft of this report. We
request that the Under Secretary of Defense (Comptroller), and the Director, DFAS
Indianapolis Center,
Table of Contents


Executive Summary                                                         i

Part I - Audit Results
      Audit Background
      Audit Objectives
      Finding A. Compiling the FY 1996 Army General Fund Financial
                  Statements
      Finding B. Adjustments to General Fund Invested Capital        1;

Part II - Additional Information
      Appendix A. Audit Process
                  Scope and Methodology
                  Management Control Program Review                  :;
      Appendix B. Summary of Prior Coverage                          21
      Appendix C. Process Used to Prepare the Army General Fund
                  Financial Statements
      Appendix D. Report Distribution
Part I - Audit Results
Audit Results



Audit Background
       Chief Financial Officers Act.           audit was              in response   the Chief
                  Officers Act       CFO Act)       1990, as            by the        Financial
       Management          of 1994.       CFO Act             the annual             and audit
          financial statements      trust funds,            funds, and            commercial
       activities of Executive departments and agencies, as well as Government
       corporations.    The CFO Act also requires the Inspectors General, or appointed
       external auditors, to audit financial statements in accordance with generally
       accepted Government auditing standards and other standards established by the
       Office of Management and Budget.

       Role of the DFAS Indianapolis Center. The Defense Finance and Accounting
       Service (DFAS) Indianapolis Center provides finance and accounting support to all
       DOD organizations, but especially to the Army and Defense agencies. Support
       includes maintaining departmental accounting records and preparing financial
       statements from general ledger trial balances and financial data on the status of
       appropriations, both submitted by DOD field accounting entities and other sources.
       However, the compilation process is complicated because financial data submitted
       to the DFAS Indianapolis Center were not generated by integrated, transaction-
       driven general ledger systems. See Appendix C, “Process Used to Prepare the
       Army General Fund Financial
                                                                           Audit Results



Audit Objectives
     The audit objective was to determine whether the DFAS Indianapolis Center
     consistently and accurately compiled financial information from field activities and
     other sources into the FY 1996 Consolidated Financial Statements of the Army
     General Fund. We evaluated the processes, including internal controls and
     methods that the DFAS Indianapolis Center used to compile the Army FY 1996
     General Fund financial statements. In addition, we reviewed the adequacy of the
     internal control program as it applied to our objectives.

     See Appendix A for a discussion of the audit process, the DFAS Indianapolis
     Center’s internal control program, and the material internal control weaknesses
     identified during our review. See Appendix B for a summary of prior audit
     coverage at the DFAS Indianapolis Center related to the audit objective.
             Finding A. Compiling the FY 1996 Army
             General Fund Financial Statements
             The         Indianapolis Center            to
             the        General Fund financial                The           used to
                               to the departmental general           data for
            $298.9 billion could          been more efficient and better
            Departmental general             adjustments were made for
            including              General Ledger             (GLACs) to           certified
            status        recording             adjustments, recording               on
            ammunition            received from external sources, or correcting errors
            made by field accounting entities Also at the end of FY 1996, the DFAS
            Indianapolis Center made 17,3 12 correcting adjustments, valued at $1.5
            billion, to data on the status of appropriations. Research and
            documentation supporting 43 Department of the Treasury reconciliation
            adjustments for about $122.4 million was late, and the research and
            documentation needed to support an additional 5 adjustments for about $7
            million was not completed. In addition, the DFAS Indianapolis Center
            inaccurately reported an abnormal negative balance of $134.3 million for
            Non-Entity Assets Fund Balance With Treasury because of posting errors.
            These problems existed because the DFAS Indianapolis Center had not
            developed a formal plan to analyze and control departmental general ledger
            adjustments and did not follow existing guidance for adjustments to status
            data. Also, an automated process that transfers cross disbursements
            generated and posted the wrong transactions to a suspense account
            supporting the Non-Entity Assets Fund Balance With Treasury. All the
            resulting errors were not corrected. As a result, the process of compiling
            the financial statements was inefficient, and the statements were subject to
            material misstatement. The Statement of Operations and Changes in Net
            Position (FYs 1996 and 1995 balances) and the Statement of Financial
            Position (FY 1995 balances) were misstated by at least $15.2 billion.


Departmental       Adjustments

     The DFAS Indianapolis Center makes many adjustments to both general ledger
     trial balances (general ledger data) and data on the status of appropriations (status
     data). Data submitted by field accounting entities are subjected to basic data edits
     and balancing routines. Status data recorded by the DFAS Indianapolis Center
     during the fiscal year are adjusted to match yearend reports on the status of
     appropriations certified by responsible officials. The adjusted status data are
     referred to as certified status data. The DFAS Indianapolis Center then makes
     departmental adjustments to general ledger and certified status data.

     Departmental General Ledger Adjustments. To present the Army General
     Fund financial data on the FY 1996 financial statements, the DFAS Indianapolis
     Center prepared 260 manual adjustment vouchers and 5 automated adjustment
     vouchers for about $298.9 billion. Individual vouchers ranged in value from $.Ol

                                           4
Finding A. Compiling the FY 1996 Army General Fund Financial Statements



to about $74.9 billion. In comparison, the preparation of the FY 1995 financial
statements required 172 vouchers for about $238 billion. Auditors identified 32
different purposes for general ledger adjustments, such as changing General
Ledger Accounts (GLACs) to match certified status data, recording auditors’
adjustments, recording information on ammunition assets received from external
sources, or correcting errors made by field accounting entities. Table 1 lists the
types of departmental general ledger adjustments.

    Table 1. FY 1996 Departmental         General Ledger Adjustments




                                               I                  I



Automated vouchers were used to change general ledger accounts to match
certified status data, to record appropriated capital used, and to make intra-agency
eliminations. All other adjustments were made using manual journal vouchers.

Types of Status Data Adjustments. The DFAS Indianapolis Center makes two
types of departmental adjustments to status data. The first type is bulk
adjustments, which are applied mechanically to address deficiencies in the
accounting system and in the reporting by field accounting entities. The second
type is individual adjustments, which are manually prepared to correct errors and
to meet accounting or reporting requirements. Individual adjustments are also
used to eliminate differences that are detected during the yearend reconciliation of
the net expenditures recorded by the DFAS Indianapolis Center and those
recorded by the Treasury (Treasury reconciliation adjustments). The Treasury
reconciliation adjustments ensure that the status data reported by the field
accounting entities and recorded by the DFAS Indianapolis Center agree with the
appropriation balances on record at the Treasury. DFAS Indianapolis Center
standard operating procedures require that the causes for the differences eliminated


                                      5
Finding A. Compiling    the FY 1996 Army General Fund Financial Statements



      by the Treasury reconciliation adjustments should be researched and documented
      before adjustments are made. Research and documentation ensure that the
      Treasury reconciliation adjustments are appropriate and correct. The Treasury
      reconciliation adjustments are critical to the preparation of the Army financial
      statements because status data, as reconciled with the Treasury, are the basis for
      the Fund Balance With Treasury reported for the Army General Fund.


General Ledger Adjustments
      The DFAS Indianapolis Center had not developed and documented a formal plan
      to control the departmental general ledger adjustment process. The process that
      the DFAS Indianapolis Center used to adjust departmental general ledger data was
      not efficient or well controlled. Preparation of the departmental general ledger
      adjustments was a large, complex task, with significant effects on the FY 1996
      Army General Fund financial statements. Further, DFAS Indianapolis Center
      personnel had not sufficiently determined which adjustments could be eliminated or
      designed the most accurate and efficient method of making the adjustments that
      could not be eliminated.

      Changing General Ledger Accounts to Match Certified Status Data. For
      FY 1996, the DFAS Indianapolis Center prepared three automated vouchers for
      about $127.8 billion to change general ledger accounts to match certified status
      data. For financial resources and liabilities such as accounts receivable and
      accounts payable, the DFAS Indianapolis Center considers certified status data to
      be more reliable than general ledger data. Review of the adjustments identified the
      following problems.

               Use of Status Data. At the DFAS Indianapolis Center, financial
      statements are not prepared using a transaction-driven, integrated accounting
      system that is based on general ledger accounting. Using status data is an
      acceptable substitute only until reliable general ledger data are available. Also, the
      magnitude of the differences between general ledger balances and status data calls
      the reliability of both into question. For example, the unadjusted FY 1996 general
      ledger balance for accounts payable was about $27 billion, but the corresponding
      status data balance was $3 billion. However, the DFAS Indianapolis Center has
      not taken effective actions to identify and correct the causes of the differences
      between the general ledger balances and status data. Each month, DFAS
      Indianapolis Center personnel identify the differences between general ledger
      balances and status data, and they require field accounting entities to reconcile and
      explain the differences. However, few field accounting entities complete these
      tasks, and the DFAS Indianapolis Center performs limited followup. DFAS
      Indianapolis Center made no systematic attempt to use the monthly process to
      identify and elite       the causes of the differences between general ledger balances
      and status data.




                                           6
Finding A. Compiling the FY 1996 Army General Fund Financial Statements



         Computation of Accounts Payable Adjustments. The database
application used to prepare the automated vouchers computed the adjustments to
accounts payable and did not differentiate between FY 1996 payables of
$1.8 billion due to the public and FY 1996 payables of $2.1 billion due to other
Federal organizations. The status data used to compute the adjustments included
the information necessary to differentiate, but the DFAS Indianapolis Center made
adjustments only to payables due to other Federal activities. This error not only
made the financial statement line item balances reported for accounts payable
unreliable, but also resulted in abnormal balances in accounts payable due to other
Federal activities for some appropriations. The abnormal balances had to be
individually corrected with 44 additional manual vouchers for about $2.1 billion. If
the DFAS Indianapolis Center properly analyzed accounts payable adjustments, the
application could be modified to correct this deficiency.

         Timing of Adjustments. The DFAS Indianapolis Center did not test
status data that were used to compute the adjustments for completeness and
accuracy before making the adjustments. As a result, an additional automatic
adjustment for $136.9 million had to be made to reflect changes in the status data.
If the status data had been reconciled first, the extra adjustments could have been
avoided.

The $127.8 billion adjustment that the DFAS Indianapolis Center made to force
general ledger accounts to match certified status data was the largest general
ledger adjustment made at yearend, and should be very carefUlly controlled until it
can be eliminated.

Recording Appropriated Capital Used. For FY 1996, the DFAS Indianapolis
Center prepared an automated voucher for about $55.2 billion to adjust GLAC
5700 to reflect appropriated capital used. Field accounting entities should record
an entry in GLAC 5700 whenever an expense is entered into the accounting
records. However, field accounting entities do not make the required entries, and
the DFAS Indianapolis Center must prepare a departmental adjustment to negate
this omission. The DFAS Indianapolis Center has not taken action to ident@ and
eliminate the cause for this problem.

Recording Auditors’ Adjustments. The DFAS Indianapolis Center did not
properly record adjustments prepared by the AAA. The AAA prepared an
adjustment to record prior-period contingent liabilities of about $15.22 billion.
However, the proposed journal voucher that the AAA provided to the DFAS
Indianapolis Center displayed the recommended adjustment amount of
$15.22 billion rounded to the nearest thousand ($15,220,000). None of the other
32 adjustments that the AM proposed for FY 1996 used rounded values, so
DFAS Indianapolis Center personnel did not recognize that the recommended
amount was rounded and recorded the adjustment as $15.22 million. This error
was not detected until after the financial statements were completed. Table 2
shows the effect of this error on the FY 1996 Army General Fund financial
statements.




                                     7
Finding A. Compiling   the FY 1996 Army General Fund Financial Statements



                Table 2. Effects of Prior-Period Adjustment      Error

                                                           FY 1996        FY 1995

      Statement of Onerations
      21.    Net Position, Beginning Balance               Over’
      23.    Non-Operating Changes                         Unde?          Over
      24.    Net Position Ending Balance                                  Over

      Statement of Financial Position
      5.b.5. Other Unfunded Governmental Liabilities                      Under
             Total Liabilities Not Covered by Budget                      Under
      :*;    Invested Capital                                             Over
      7:c:   Cumulative Results of Operations                             Over
      7.e.   Future Funding Requirements                                  Under
      7.f    Total Net Position                                           Over
             Error Amount: $15,214,780,000

      ‘Overstated
      ‘Understated

      Also, the error resulted in a variance of about $13.4 billion between the
      FY 1996 and FY 1995 balances for Statement of Financial Position, line 5.b.5.,
      Other Unfunded Governmental Liabilities. This material variance should have
      been detected by the DFAS Indianapolis Center during quality control reviews and
      filly explained in the footnotes to the financial statements.

      The DFAS Indianapolis Center will continue to make large yearend general ledger
      adjustments to correct accounting system deficiencies and incorrect accounting
      practices unless each type of adjustment is analyzed and the causes of problems are
      identified and eliminated. If the adjustments must be made because of systemic
      problems that cannot be corrected in legacy accounting systems, the DFAS
      Indianapolis Center should ensure that the problems are avoided in migratory
      accounting systems such as the Defense Joint Accounting System - Army. After
      comprehensively analyzing the adjustments, the DFAS Indianapolis Center should
      establish and document a detailed plan to control the identification, documentation,
      and implementation of departmental general ledger adjustments. Such a plan will
      help to avoid duplication of effort, ensure that automatically prepared adjustments
      are correctly computed, and control the form and timing of adjustments by third
      parties.


Adjustments To Status Data

      At FY 1996 yearend, the DFAS Indianapolis Center made 17,3 12 avoidable
      adjustments to status data. Reconciliation and research supporting 43 Treasury
      reconciliation adjustments for about $122.4 million were late, and research and




                                          8
    Finding A. Compiling the FY 1996 Army General Fund Financial Statements



    documentation needed to support an additional five adjustments for about
    $7 million was not completed because DFAS Indianapolis Center personnel did not
    follow existing guidance.

    Deobligation Adjustments. The DFAS Indianapolis Center made unnecessary
    adjustments to status data because DFAS Indianapolis Center managers rescinded
    valid accounting policy. DFAS Indianapolis Center personnel were making a large
    number of automatic adjustments to correct a common error made by Army
    accounting entities. The DOD requires that adjustments to prior year obligations
    should be recorded as recoveries, but Army accounting entities consistently
    reported such adjustments as credit obligations. In June 1995, the DFAS
    Indianapolis Center issued a message instructing Army accounting entities to
    comply with the Treasury requirements for recording recoveries and credit
    obligations. However, the message was rescinded in July because some Army
    entities used the data on recoveries and credit obligations for management
    purposes and objected to the correct accounting procedures. The U.S. Army
    Forces Command stated, “This proposed policy is certain to overstate our true
    deobligations.” At the end of FY 1996, the DFAS Indianapolis Center was forced
    to make 17,3 12 adjustments to correct errors valued at about $1.5 billion. The
    DFAS Indianapolis Center should enforce Treasury accounting policy.

    Treasury Reconciliation Adjustments. Research and documentation supporting
    43 Treasury reconciliation adjustments for about $122.4 million were late, and the
    research and documentation needed to support an additional five adjustments for
    about $7 million were not completed. The DFAS Indianapolis Center made the 48
    required Treasury reconciliation adjustments for about $129.4 million at the end of
    October 1996. However, contrary to established guidance and practice, the
    research and documentation needed to support the adjustments were not
    completed before the adjustments were made. Formerly, the Treasury
    reconciliation adjustments, including the research and documentation necessary to
    support the adjustments, were finished in late October. However, for FY 1996,
    the research and documentation needed to support 43 adjustments were not
    completed until December 7, 1996, and the research needed to support the
    remaining 5 adjustments for about $7 million was not completed. The status data
    reports used to determine the Fund Balance With Treasury reported for the Army
    General Fund were completed about November 7, 1996. If the research and
    documentation needed to support the Treasury reconciliation adjustments are not
    completed before the adjustments are made, there is no assurance that the
    adjustments are accurate and complete.


Non-Entity Fuhd Balance With Treasury
    The DFAS Indianapolis Center could not determine the correct balance for the
    Army FY 1996 Non-Entity Fund Balance With Treasury because of posting errors
    made to a supporting suspense account.




                                         9
Finding A. Compiling the FY 1996 Army General Fund Financial Statements



      The Army Suspense Account.              Non-Entity Fund Balance With Treasury
      included the yearend balance of the Budget Clearing Account (Suspense) for the
      Department of the Army (Appropriation 2 1-X-6875, the Army Suspense
      Account). For FY 1996, the Army reported the Non-Entity Fund Balance With
      Treasury as a negative $134.3 million and the fiscal yearend balance of the Army
      Suspense Account as a negative $188 million. Both are abnormal account
      balances. The DFAS Indianapolis Center uses the Army Suspense Account to
      record differences between cross-disbursing transaction amounts reported to the
      Treasury and the amounts reported to the DFAS Indianapolis Center for the same
      transactions, if the differences cannot be resolved within 12 months.
      A cross-disbursing transaction occurs when a Federal entity other than the Army
      disburses Army funds. For example, the State Department disburses $3 million
      from an Army construction appropriation and reports this disbursement to the
      Treasury correctly. However, the detailed record of the disbursement, which the
      State Department sends to the DFAS Indianapolis Center, incorrectly shows that
      the disbursement was for $2 million. DFAS Indianapolis Center personnel would
      attempt to reconcile this $1 million difference ($3 million minus $2 million), but if
      they were not successful after 12 months, the difference would be removed from
      the Army construction appropriation and recorded in the Army Suspense Account.
      The transfer to the Army Suspense Account is automated.

      Automated Process. At the end of FY 1996, the Army Suspense Account had an
      abnormal balance of a negative $188 million. DFAS Indianapolis Center personnel
      determined that the abnormal balance existed because the automated process that
      transfers cross-disbursing differences over 12 months old was generating incorrect
      transactions. The DFAS Indianapolis Center recently began processing cross-
      disbursing transactions for other DOD organizations. Cross-disbursing differences
      over 12 months old that arise from DOD transactions should be recorded in the
      DOD Suspense Account (Appropriation 97-X-6875). However, the automated
      process was recording DOD cross-disbursing differences in the Army Suspense
      Account. The automated process has been discontinued.

      As of February 1997, the DFAS Indianapolis Center was unable to determine the
      actual fiscal yearend balance of the Army Suspense Account. As a result, DFAS
      Indianapolis Center personnel could not determine or report the actual Army Non-
      Entity Fund Balance With Treasury for FY 1996. Instead, the DFAS Indianapolis
      Center reported an abnormal balance amount that included the erroneous Army
      Suspense Account balance and disclosed that the true balance for the Non-Entity
      Fund Balance With Treasury was unknown. The DFAS Indianapolis Center
      should determine the actual fiscal yearend balance of the Army Suspense Account
      as soon as possible.


Conclusion
      The DFAS Indianapolis Center will continue to make large yearend general ledger
      adjustments to correct accounting system deficiencies and incorrect accounting
      practices unless each type of adjustment is analyzed and the causes of problems are
      identified and eliminated. If the adjustments must be made because of systemic
      problems that cannot be corrected in legacy accounting systems, the DFAS



                                          10
    Finding A. Compiling the FY 1996 Army General Fund Financial Statements



                  Center should ensure that the problems are avoided in migratory
    accounting systems, such as the Defense Joint Accounting System - Army.
    Furthermore, the DFAS Indianapolis Center could avoid unnecessary status data
    adjustments and properly support Treasury reconciliation adjustments if it enforced
    existing policy and guidance. Also, the DFAS Indianapolis Center will not be able
    to report accurate balances for Non-Entity Fund Balance With Treasury until the
    correct balance for the Army Suspense Account is determined.


Recommendations for Corrective Action
    A. We recommend that the Director, Defense Finance and Accounting         Service
    Indianapolis Center:

            1. Establish procedures to improve the efficiency of and control over the
    process used to adjust departmental general ledger data. Specific improvements
    should include the following:

                     a. Analyze all general ledger adjustments made at yearend. Where
    possible, identity and eliminate the causes of yearend adjustments that are due to
    accounting errors or system deficiencies. If the cause of a type of adjustment
    cannot be eliminated because of restrictions on changes to legacy accounting
    systems, ensure that the developers of migratory accounting systems are aware of
    the systemic problems that cause the adjustments so that changes can be made to
    the systems.

                   b. Determine the most accurate and efficient method for preparing
    general ledger adjustments that cannot be eliminated.

           2. Enforce existing guidance for status data adjustments,   including:

                    a. Reissue and enforce Department   of the Treasury policy guidance
    requiring the correct reporting of deobligations.

                  b. Complete the research and documentation needed to support
    Department of the Treasury reconciliation adjustments before making the
    adjustments.

           3. Determine the actual FY 1996 yearend balance of the Army Suspense
    Account (Appropriation 2 1-X-6875) and report the correct FY 1996 Non-Entity
    Fund Balance With Treasury as a prior-period correction.

            4. Review the compilation process for the Army General Fund financial
    statements as part of the Defense Finance and Accounting Service self-evaluation.
    Appendix A gives details on the adequacy of management’s self-evaluation.




                                         11
Finding A. Compiling   the FY 1996 Army General Fund Financial Statements



Management Comments Required
      The Director, Defense Finance and Accounting Service Indianapolis Center, did
      not comment on the draft report. We request that the Director, Defense Finance
      and Accounting Service Indianapolis Center, provide comments on this report.




                                        12
           Finding B. Adjustments to General
           Fund Invested Capital
           Army general ledger accounts did not accurately reflect the value of
           assets transferred to or from the Army. This occurred because the DOD
           Standard General Ledger Chart of Accounts did not provide the General
           Ledger Accounts needed to record adjustments to General Fund invested
           capital. As a result, the balances of $208.4 billion recorded for assets
           transferred to the Army and $40.3 billion recorded for assets from the
           Army were not supportable, and the Army will not be able to meet
           changing and more detailed fmancial reporting requirements in FY 1998.



General Ledger Accounts
    Standard General Ledgers. The U.S. Government Standard General Ledger
    (SGL) Chart of Accounts, published by the Department of the Treasury
    Financial Management Service, defines the GLACs that all Federal agencies
    must use when recording accounting transactions. The USD(C) issued the DOD
    SGL Chart of Accounts as a supplement that defines additional GLACs. The
    additional GLACs allow DOD accounting entities to maintain more detailed
    accounting records than the U.S. Government SGL alone would permit. Both
    the U.S. Government SGL and the DOD SGL define GLACs as accounts to be
    used when recording transactions (“posting accounts”) or accounts to be used to
    summarize the contents of subordinate GLACs (“summary accounts”). Because
    the DOD SGL includes more detail than the U.S. Government SGL, accounts
    that are defined as posting accounts in the U.S. Government SGL are often
    defined as summary accounts in the DOD SGL.

    F’inancial Reporting. Current instructions to Federal agencies on the use of
    GLACs to construct financial reports are in Office of Management and Budget
    Bulletin No. 94-01, “Form and Content of Agency Financial Statements?”
    November 16, 1993, as modified by Treasury Financial Manual Transmrttal
    Letter No. S2-96-01. DOD normally issues annual interpretations of the Office
    of Management and Budget Bulletin. For example, the USD(C) issued its
    “Guidance on Form and Content of Financial Statements for FY 1996 Financial
    Activity” in October 1996. However, the Office of Management and Budget
    Statement of Federal Financial Accounting Concepts Number 2, “Entity and
    Display,” June 6, 1995, defines an entirely new set of five financial statements
    for all Federal agencies. Office of Management and Budget Bulletin No. 97-01,
    “Form and Content of Agency Financial Statements,” October 16, 1996, states
    that the provisions of Statement of Federal Financial Accounting Concepts
    Number 2 are to be implemented in the preparation of financial statements for
    the fiscal year ending September 30, 1998.




                                       13
Finding B. Adjustments to General Fund Invested Capital



Adjustments      to Equity Accounts
      The DOD SGL does not include the GLACs necessary to record appropriated
      fund capital investments correctly.

      Capital Investment GLACs. The U.S. Government SGL defines GLAC 3210,
      Capital Investments, as a posting account used to record initial investment to
      commence operations, results of operations, and funds returned to Treasury.
      The DOD SGL defines GLAC 3210 as a summary account and defines several
      subordinate GLACs for various types of capital investments. However, the
      DOD SGL does not define a subordinate capital investment GLAC for
      appropriated funds. The U.S. Government SGL also defines GLAC 3220 as a
      posting account for recording the value of assets transferred in from others
      without reimbursement, and GLAC 3230 as a posting account for recording the
      value of assets transferred out to others without reimbursement. The DOD SGL
      defines these accounts in the same way, except that GLAC 3230 is defined as a
      summary account with two subordinates, one for transfers within the
      Government (GLAC 3231) and one for transfers to all others (GLAC 3232).

      Capital Investment Adjustments. During the compilation of the Army
      General Fund financial statements, DFAS Indianapolis Center personnel must
      often make departmental general ledger adjustments to appropriated funds
      invested capital. However, because the DOD SGL does not include a posting
      account for appropriated funds invested capital, the USD(C) directed the DFAS
      Indianapolis Center to make invested capital adjustments to the transfer accounts
      (GLACs 3220 and 3231). As a result, these two accounts are subject to large
      volumes of adjustments and have large balances. For FY 1996, the DFAS
      Indianapolis Center made 69 adjustments for about $27.4 billion to GLAC 3220
      and another 75 adjustments for $29.5 billion to GLAC 323 1. The ending
      balances for the two accounts were $208.4 billion and $40.3 billion,
      respectively. However, these adjustments and balances are not related to the
      actual transfer of assets to and from the Army. For example, while recording
      auditor-recommended adjustments for FY 1996, the DFAS Indianapolis Center
      posted about $2 billion to GLAC 3220 and about $20.1 billion to GLAC 323 1.
      None of these adjustments was related to the transfer of assets to or from the
      Army. As a result of these and similar adjustments, the true balances that
      should be recorded in the transfer accounts cannot be determined.

      Effect on l?hancial Statements. Because current guidance for financial
      statements requires that invested capital, transfers in, and transfers out to be
      reported on the same financial statement line, the improper use of the transfer
      accounts has no adverse effect on the FY 1996 financial statements. However,
      the practice of making unrelated adjustments to the transfer accounts has
      rendered the true balance of these accounts unauditable. In addition, starting in
      FY 1998, the provisions of Statement of Federal Financial Accounting Concepts
      Number 2 require that transfers in and transfers out be reported separately in the
      Statement of Changes in Net Position. Improper use of the transfer accounts
      will prevent accurate reporting and will have a material negative effect on
      financial reporting beginning in FY 1998.




                                        14
                      Finding B. Adjustments to General Fund Invested Capital



    The USD(C) should revise the DOD SGL to eliminate this problem. The DFAS
    Indianapolis Center should make a special study to determine the actual balances
    that should be recorded in the transfer accounts and make appropriate
    adjustments to the general ledger.



Recommendations for Corrective Action
    B. 1. We recommend that the Under Secretary of Defense (Comptroller) revise
    the DOD Standard General Ledger Chart of Accounts to permit adjustments to
    appropriated fund invested capital.

    B.2. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis Center, determine the correct balances to be recorded for
    assets transferred to and from the Army General Fund and make appropriate
    adjustments to the general ledger.



Management Comments Required
    The Under Secretary of Defense (Comptroller) and the Director, Defense
    Finance and Accounting Service Indianapolis Center, did not comment on the
    draft report. We request that the Under Secretary of Defense (Comptroller) and
    the Director, Defense Finance and Accounting Service Indianapolis Center,
    provide comments on this report.




                                       15
Part II - Additional   Information
Appendix A. Audit Process


Scope and Methodology
    Audit Work Performed. We limited our audit of the compilation of the Army
    FY 1996 General Fund financial statements to examining the DFAS Indianapolis
    Center’s processes for consolidating departmental status and general ledger data.
    These data were used to prepare the version of the Army financial statements that
    was submitted to the auditors on December 19, 1996. Our audit included a review
    of the following processes:

            l   establishing beginning account balances;

            l   reporting and certifying yearend data, including the controls over
                yearend status data, the Treasury trial balance, and the general ledger
                reconciliations;

            l   making adjustments   directly to the Financial Statement Database file;
                and

            l   transferring the status-adjusted general ledger data to the Financial
                Statement Database and to the Army financial statements.

    Limitations to Audit Scope. Because our audit was limited to work performed
    at the DFAS Indianapolis Center, we did not examine the accuracy of data that
    originated at DOD field accounting entities or other sources, or attempt to
    reconcile the data with subsidiary records maintained by field accounting entities.
    However, we did compare the Fund Balance With Treasury recorded by the
    Treasury for the Army General Fund to the Fund Balance With Treasury reported
    in the Army General Fund financial statements. We also reviewed the closing
    positions for Army General Fund appropriations for deficit balances and the
    general ledger trial balances for reasonableness.

    To achieve the audit objective, we relied primarily on computer-processed    data in
    the Departmental Budget and Accounting Reporting System and the General
    Ledger Database. We accomplished a limited assessment of the reliability of this
    data using the GAO systems audit approach designed for generalists. Our limited
    review determined that the internal controls and methods used were adequate. We
    also conducted tests of the data and concluded that the computer-processed     data
    were sufficiently reliable to complete the audit objective. However, field-level
    systems were not included in the review; therefore, we can comment only on the
    reliability of data processed after receipt by the DFAS Indianapolis Center.

    Audit Type, Dates, Locations, and Standards. We performed this financially
    related audit at the DFAS Indianapolis Center from May 1996 through
    August 1997. The audit was conducted in compliance with the auditing standards

                                           18
                                                            Appendix A. Audit Process



    established    by the Comptroller General, as implemented by the Inspector General,
    DOD, and      with Office of Management and Budget guidance. The audit included
    such tests    of management controls and management compliance with laws and
    regulations    as we considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD. Further details are available upon request.


Management Control Program Review
    DOD Directive 50 10.3 8, “Management Control (MC) Program,”
    August 26, 1996, requires DOD organizations to implement a comprehensive
    system of management controls that provide reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the DFAS Indianapolis Center management controls for consolidating
    the status and general ledger data for preparation of the Army financial statements.
    We reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Internal Controls. We identified material internal control
    weaknesses at the DFAS Indianapolis Center for consolidating the status and
    general ledger data for preparation of the Army financial statements, as defined by
    DOD Directive 50 10.38. The DFAS Indianapolis Center internal controls were not
    adequate to ensure that the process of adjusting departmental general ledger data
    was efficient or well controlled, that unnecessary status data adjustments were
    avoided, that research and documentation needed to support Treasury
    reconciliation adjustments were completed before making the adjustments, or that
    the balance for Non-Entity Assets Fund Balance With Treasury was correctly
    determined. The internal control weaknesses that we identified, and our
    recommendations for improvements, are discussed in Part I. Recommendations
    A. l., A.2., A.3., and A.4., if implemented, will improve DFAS Indianapolis Center
    processes for consolidating the status and general ledger data for preparation of
    the Army financial statements. A copy of the report will be provided to the senior
    official responsible for internal controls at the DFAS Indianapolis Center.

    Adequacy of Management’s Self-Evaluation.            Management’s self-evaluation
    was not adequate. DFAS Indianapolis Center officials identified the components
    of the financial statement compilation as assessable units, but the DFAS
    Indianapolis Center did not perform three internal control reviews that were
    scheduled. The DFAS Indianapolis Center’s inventory of assessable units listed
    four assessable units that provide critical data to the reporting process for Army
    General Fund financial statements. Three of the assessable units were scheduled to
    perform internal control reviews, but none of the reviews was performed. The
    DFAS Indianapolis Center reorganized and the internal control program
    coordinator developed a new inventory of assessable units. Because the
    reorganization eliminated the divisions corresponding to the three assessable units
    that were to perform the reviews, the internal control program coordinator
    determined that the reviews were no longer necessary. However,



                                            19
Appendix   A. Audit Process



      DFAS 5010.38-R does not support this determination. Also, the Management
      Control Division, USD(C), has stated that the determination that reorganization
      eliminates the requirement to complete scheduled control reviews is not
      appropriate. DFAS 5010.38-R requires risk assessments of newly established
      assessable units. If the program coordinator had scheduled the required risk
      assessments and the responsible managers had conducted them, the coordinator
      would have determined that a single assessable unit had been established that
      encompassed the duties and functions of the three eliminated assessable units. The
      scheduled reviews should have been performed.




                                          20
Appendix B. Summary of Prior Coverage
   Inspector General, DOD, Report No. 96-161, “Compilation of the FY 1995
   and F’Y 1996 DOD Financial Statements at the Defense Finance and
   Accounting Service, Indianapolis Center,” June 13, 1996. The Inspector
   General, DOD, delegated the issuance of an audit opinion to the MA and
   assisted the AAA by performing the required audit work at the DFAS
   Indianapolis Center. The Inspector General, DOD, concluded that the DFAS
   Indianapolis Center consistently and accurately compiled financial data from
   field entities and other sources into the FY 1995 Consolidated Financial
   Statements for the Army General Fund. The efficiency and internal control
   environment of the compilation process had significantly improved since
   FY 1993. However, further improvements in the compilation process were
   needed. The DFAS Indianapolis Center could have better explained that
   variances of up to $6 billion occurred in financial statement line items from year
   to year because FY 1995 financial data were not comparable to FY 1994
   financial data. Footnotes were incomplete. Also, controls over making 15
   auditor-recommended adjustments for about $19.5 billion and preparing 165
   accounting adjustment vouchers needed improvement. The auditors made four
   recommendations to improve disclosure and footnotes and to strengthen internal
   control procedures. The DFAS Indianapolis Center concurred with all
   recommendations. As of fiscal yearend 1996, all recommended actions were
   complete.

   Inspector General, DOD, Report No. 94-168, “Defense Finance and
   Accounting Service Work on the Army’s FY 1993 Financial Statements,”
   July 6, 1994. This audit combined the results of audit work on the Army
   FY 1993 General Fund and the Defense Business Operations Fund (DBOF)
   financial statements. The Inspector General, DOD, delegated the issuance of an
   audit opinion to the AAA and assisted the AAA by performing the required
   audit work at the DFAS Indianapolis Center. The Inspector General, DOD,
   concluded that the Army DBOF financial statements for FY 1993 were
   misstated by about $2.2 billion and the Army General Fund financial statements
   were misstated by about $2.7 billion because the DFAS Indianapolis Center
   failed to detect or correct errors in the financial data submitted to the Army
   departmental general ledger. Additionally, the DFAS Indianapolis Center did
   not adequately document about $9.8 billion of the status data adjustments
   reviewed and about $48.3 billion of the departmental general ledger adjustments
   reviewed. DBOF inventory accounting was not correct, and inputs and
   adjustments to the departmental general ledger were not properly organized and
   controlled. The auditors made 10 recommendations to strengthen internal
   control procedures and to address detection and correction procedures for
   general ledger accounts. The DFAS Indianapolis Center concurred with or
   provided acceptable alternative actions for all recommendations.




                                       21
Appendix
 --      C. Process Used to Prepare the Army
General Fund Financial Statements
   The DFAS Indianapolis Center prepares the Army financial statements from
   unconsolidated financial data. However, neither the DFAS Indianapolis Center
   Headquarters Accounting and Reporting System nor its supporting accounting
   subsystems conform to the general ledger method of accounting. In addition,
   the financial data submitted to the DFAS Indianapolis Center were not generated
   by integrated, transaction-driven general ledgers. As a result, the DFAS
   Indianapolis Center uses a complex process to combine financial information
   from many accounting subsystems and to compile the Army financial
   statements.

   Beginning Balances. To establish correct beginning balances for the general
   ledger accounts, the field accounting entities transfer any direct adjustments
   from the prior year that affected general ledger balances, such as auditor
   adjustments, to the General Ledger Data Base.

   Yearend Status Data Certification. The status data accumulated in the
   Departmental Budgetary Accounting and Reporting System during the fiscal
   year are corrected to match certified status reports. At the end of the fiscal
   year, certified status of funds reports are transmitted to the Departmental
   Budgetary Accounting and Reporting System for all operating agencies
   supported by the DFAS Indianapolis Center. The certified reports are then
   compared to the corresponding status data, and the status data are adjusted to
   match the certified reports.

   Reconciliation to the Treasury Trial Balance. The status data are reconciled
   to the net expenditures recorded by the Treasury. DFAS Indianapolis Center
   personnel extract current-year data on net collections and disbursements from
   the Departmental Budgetary Accounting and Reporting System by
   appropriation, creating the Balance Forward file. The same data are then
   obtained from the Treasury using an interactive system, the Government On-line
   Accounting Link System. Each month, four Government On-line Accounting
   Link System reports are available: all activity for each appropriation by month
   for receipts (Treasury Reports 6654 and 6655 Receipts); all activity for each
   appropriation by month for disbursements (Treasury Report 6653
   Disbursements); and the ending balance for each appropriation by month for
   disbursements (Treasury Report No. 6654 Disbursements). Government On-
   line Accounting Link System reports are generally available 16 days after the
   end of the reporting period. DFAS Indianapolis Center personnel compare the
   status data to the Treasury data. All differences are researched and reconciled.

   Adjustments to Status Data. DFAS Indianapolis Center personnel make
   departmental adjustments to the certified status data. The adjustments allow
   status data to show the effect of in-transit and unmatched transactions on
   accounts payable and accounts receivable; correct bulk errors caused by




                                       22
                              Appendix C. Process Used to Prepare the Army
                                         General Fund F’inancial Statements


deficiencies in accounting systems; meet special reporting requirements; and add
department-level information not available to or accounted for by the field
accounting systems.

Creation of the Financial Statement Database Files. DFAS Indianapolis
Center personnel consolidate the financial data that are reported directly to the
departmental general ledger from the field accounting activities and stored in the
General Ledger Data Base in a microcomputer database, the Financial Statement
Database. The Financial Statement Data Base contains two files. The first file,
SOURCE2 1, is a summary-level database used to prepare the Army financial
statements. The second file, SOURCEOA, is a more detailed database,
recorded at the fisca station and allotment level for Army General Fund
appropriations, which is used only for research purposes.

Direct Adjustments. DFAS Indianapolis Center personnel make adjustments
directly to the SOURCE21 database. The direct adjustments are used to enter
&a-agency eliminations; estimates for future expenses, such as Worker’s
Compensation Act payments; information on nonfinancial resources received as
hard copy or electronically from activities such as the Army Materiel Command
or the National Guard Bureau; and department-level expenditures for receipt
accounts. Direct adjustments are also used to change the financial information
in the general ledger so that the financial resources reported in the Army
statements agree with Departmental Budgetary Accounting and Reporting
System and Treasury reports.

Preparation of the Basic Financial Statements. A microcomputer program
known as the Comprehensive Reporting System converts the SOURCE21 file
into the Army financial statements. The application uses three other files to
perform the conversion: a list of appropriations to be included in the Army and
Defense agency statements (the Group table); a crosswalk that directs general
ledger accounts to the correct financial statement line for each set of statements
(the Map table); and the fixed-text portion of each set of financial statements
(the Lines table).

Production of the Initial Financial Report. DFAS Indianapolis Center
personnel add footnotes, supplementary schedules, and an overview section to
the basic financial statements produced by the Comprehensive Reporting System
to create the initial version submitted for audit.

Production of the Audited Financial Statements. The initial version of the
Army statements is subsequently modified to show adjustments caused by the
audit, and to include the audit opinion and other changes. This version
(Version II) then becomes the audited submission.

The DFAS Indianapolis Center has used this process to prepare the Army
financial statements since FY 1993.




                                    23
Appendix D. Report Distribution

Offke of the Secretary of Defense
  Under Secretary of Defense (Comptroller)
     Deputy Chief Financial Officer
     Deputy Comptroller (Program/Budget)
  Assistant Secretary of Defense (Public Affairs)
  Director, Defense Logistics Studies Information Exchange

Department of the Army
  Auditor General, Department of the Army

Department of the Navy
  Assistant Secretary of the Navy (Financial Management and Comptroller)
  Auditor General, Department of the Navy

Department of the Air Force
  Assistant Secretary of the Air Force (Financial Management and Comptroller)
  Auditor General, Department of the Air Force

Other Defense Organizations
  Director, Defense Contract Audit Agency
  Director, Defense Finance and Accounting Service
     Director, Defense Finance and Accounting Service, Indianapolis Center
  Director, Defense Logistics Agency
  Director, National Security Agency
     Inspector General, National Security Agency
  Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
  Office of Management and Budget
  Technical Information Center, National Security and International Affairs Division,
     General Accounting Office




                                          24
                                                  Appendix D. Report Distribution




Non-Defense Federal Organizations and Individuals (cont’d)
Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
     House Subcommittee on Government Management, Information, and
        Technology, Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                         25
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

F. Jay Lane
Richard B. Bird
John J. Vietor
Paul C. Wenzel
Craig W. Zimmerman




                                   27
